                                                                             OIG Recovery Act Plan Overview
                                   OIG Name: Amtrak

                                               Our overall goals are to: 1) ensure that programs proposed by Amtrak meet legislative candidacy requirements; 2) Program are well managed,  
                OIG Broad Recovery Act Goals: 3) Risks are identified and adequate controls, checks and balances are in place; 4) Only allowable program expenses are applied to ARRA 
                                             funded programs; and 5) Scopes of work are clear and results are measurable.
                                             Amtrak's OIG outreach goals are to 1) educate Amtrak's managers, staff, and vendors on the scrutiny that ARRA‐funded projects are likely to 
                                             receive from various sources. 2) Improve awareness of the requirements and goals of the ARRA legislation; and 3) Minimize the potential for 
OIG Broad Training and Outreach Recovery Act
                                             fraud, waste, and abuse associated with ARRA‐funded programs. For program areas that we consider to have elevated levels of risk, our office 
                                      Goals:
                                             will provide both briefings and literature relating to fraud awareness and prevention, sound program control practices, and financial 
                                             management requirements.
                                             Our office has developed a risk identification / risk management template that we will use to assess the inherent risks associated with each of 
                                             Amtrak's ARRA‐funded programs. It assesses 10 program aspects and ranks the level of risk for each. As Amtrak finalizes its list of ARRA‐funded 
   OIG Recovery Act Risk Assessment Process:
                                             initiatives, our office will work with Amtrak management to perform a risk assessment on each program, and propose mitigation tactics for 
                                             those areas of elevated risk.

                       OIG Recovery Act Funds: $5,000,000 
    Expiration Date of OIG Recovery Act Funds: 30‐Sep‐13


OIG Recovery Act Funds Allocated to Contracts: Yes
           Purpose of Recovery Act Contracts: Contractors will be used for 1) to assist with program controls; and 2) to provide subject matter expertise
  Types of Recovery Act Contracts Awarded to 
                                              None
                                       Date:

          Link to OIG Recovery Act Work Plan: www.Amtrakoig.com




      Page 1 of Overview                                                                                                                                      Copy of Amtrak OIG FY 2010 Recovery Act Work Plan.xls
                                                                                                                   OIG FY 2010 Recovery Act Work Plan

                                                                                                                                                                                                                                                Review 
                                                                                                                                                                                                                                              Included on  Expected        Expected 
                                    Recovery Act Funds                                                                                                                                                                                                                                  Expected 
                                                                                  Entity Performing                                                                                                                                               Prior     Quarter        Quarter(s) 
  Agency        Program Area            Associated              Type of Review                               Project Title                             Background                                            Objective                                                                 Number of 
                                                                                       Review                                                                                                                                                  Recovery      Work           Reports 
                                     w/Program Area                                                                                                                                                                                                                                      Reports
                                                                                                                                                                                                                                                Act Plan    Begins           Issued
                                                                                                                                                                                                                                                 (Y/N)

                                                                                                                                                                                        Confirm the eligibility of all programs to receive 
                                                                                                       Review the eligibility of                                                        ARRA funding, ensuring that 1) the legislative 
                                                                                                                                  Amtrak has put forth a portfolio of programs to 
Amtrak                 All          $        1,300,000,000  Eligibility           OIG Staff            each Amtrak program to                                                           terms are respected; 2) the programs are not          Yes          Q2 FY 09         Q3 FY 10              1
                                                                                                                                  be executed using ARRA funding.
                                                                                                       receive ARRA funding                                                             supplanting existing programs; and 3) the 
                                                                                                                                                                                        programs are valid from a GAAP standpoint. 

                                                                                                                                    A number of ARRA‐funded program areas within 
                                                                                                       Assess the inherent risks    Amtrak have been the subject of past audits 
                                                                                                                                                                                        Identify areas of elevated risk within each ARRA‐
                                                                                                       associated with each         where material weaknesses were discovered. Our 
Amtrak                 All          $        1,300,000,000  Other                 OIG Staff                                                                                             funded program, and work with Amtrak to               Yes          Q3 FY 09         Q3 FY 10              1
                                                                                                       major ARRA‐funded            office is also concerned about Amtrak's ability to 
                                                                                                                                                                                        formulate practical risk litigation tactics. 
                                                                                                       program                      properly execute this volume of programs over 
                                                                                                                                    the constrained time frame.

                                                                                                                                    Amtrak 's mechanical maintenance facilities have 
                                                                                                                                    been the subject of several OIG audits where       To mitigate the risk of waste and abuse 
                                                             Administrative /                          Review program and 
Amtrak            Mechanical        $           141,000,000                       OIG Staff                                         material weakness have been discovered. These  associated with Amtrak's rail car refurbishment            Yes          Q3 FY 09         Q2 FY 10           2 to 3
                                                             Financial                                 financial controls
                                                                                                                                    facilities will be planned and executing rail car  program. 
                                                                                                                                    overhauls under the ARRA program. 

                                                                                                                                    Amtrak has put forward an ambitious program to 
                                                                                                                                    overhaul key portions of its infrastructure. Its  To mitigate the risk of waste and abuse 
                                                             Administrative /                          Review program and 
Amtrak           Engineering        $           855,000,000                       OIG Staff                                         Engineering department is contracting             associated with Amtrak rail and station                 Yes          Q4 FY 09            TBD                8+
                                                             Financial                                 financial controls
                                                                                                                                    construction management firms to oversee a        infrastructure upgrades. 
                                                                                                                                    large portion of its program. 

                                                                                                                                    Police & Security is a relatively new department 
                                                                                                                                    within Amtrak, its mandate being to secure the 
                                                              Administrative /                         Review program and           railroad against external threats. Being a new      To mitigate the risk of waste, abuse, and fraud 
Amtrak        Police and Security  $           196,000,000                        OIG Staff                                                                                                                                                   Yes          Q3 FY 09            TBD                3+
                                                              Financial                                financial controls           department, its management and control              associated with Amtrak's security programs. 
                                                                                                                                    standards and practices have not yet been fully 
                                                                                                                                    implemented. 

                                                                                                                                                                                        To educate Amtrak's managers, staff, and vendors 
Amtrak                 All          $        1,300,000,000  Performance           OIG Staff            Outreach Program                                                                                                                   Yes              Q3 FY 09         04 FY 10              1
                                                                                                                                                                                        on the prevention of fraud, waste, and abuse. 

Amtrak




         Page 2 of Work Plan                                                                                                                                                                                                                                Copy of Amtrak OIG FY 2010 Recovery Act Work Plan.xls
